No. ________________
In The
Supreme Court of The United States
GABRIEL Z. KERSHAW

*

vs.
UNITED STATES

*
*

No.

PROOF OF SERVICE
I hereby certify that on this 10th day of February, 2021, I have, as required by
Supreme Court Rule 29, filed and served the enclosed Motion for Leave to Proceed In
Forma Pauperis and Petition for a Writ of Certiorari on each party to the above
proceedings or that party’s counsel, and on every other person required to be served,
by delivery by a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served via third-party commercial carrier
are as follows:
William Camden Lewis
OFFICE OF THE UNITED STATES ATTORNEY
1441 Main Street, Suite 500
Columbia SC 29201-2692
803-929-3062
William.C.Lewis@usdoj.gov
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Date: February 10, 2021

Respectfully submitted,
/s/ Derek J. Enderlin
Derek J. Enderlin
ROSS & ENDERLIN, PA
330 East Coffee Street
Greenville, SC 29601
(864) 710-3936
derek@rossenderlin.com
Counsel for Petitioner

